No. 20In the

Supreme Court of the United States
GREGORY GREER,
Petitioner,
v.
GENERAL DYNAMICS INFO. TECH., INC.,
A DELAWARE CORPORATION DOING BUISNESS
IN THE STATE OF MARYLAND,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Fourth Circuit

PETITION FOR A WRIT OF CERTIORARI

Jeffrey M. Ginsberg
Briefs & Motions, Inc.
527 Via Assisi
Cathedral City, CA 92234
(760) 324-3830
jmginsberg1@aol.com

Ralph Greer
Counsel of Record
Law Office of Ralph Greer
10401 Grosvenor Place, Suite 1511
Rockville, Maryland 20852
(626) 536-8700
greerlaw.rsg@gmail.com

Attorneys for Petitioner

297334

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
I.

Is the language of 48 CFR 7.503(d)(13), which
is inconsistent with relevant Defense Federal
Acquisition Regulations Supplement provisions
(DFARS) concerning contractor-employee
supervision by governmental employees, vague
and untenable juxtaposed with those on point
DFARS?

II. Is an inherently governmental function of
super v ising a United States Depar tment
of Defense (DOD) employee by a superior
government functionary distinct from the not
inherently governmental function of supervising
a DOD contractor-employee by such government
functionary?
III. As Executive Order 12829 (National Industrial
Security Program) [NISP] has been codified
in the Federal Register and has the force of
law, is a private right of action against the
contractor- employer for concealment and
misrepresentation of the correct security
clearance level maintainable?
IV. Does the lack of debr ief ing when a DOD
contractor-employee is terminated from his or
her position violate NISP and create a private
right of action to vindicate injuries from such
omission?

ii
PARTIES TO THE PROCEEDINGS
Gregory Greer, Petitioner
General Dynamics Info. Tech., Inc., (GDIT), Respondent

iii
CORPORATE DISCLOSURE STATEMENT
Gregory Greer is an individual and not a corporation.
General Dynamics Info. Tech., Inc., is a subsidiary
of General Dynamics Corporation which is its parent
corporation. GDIT is not a publicly held corporation. Ten
Percent or more of its stock is owned by the publicly held
corporation General Dynamics Corporation.

iv
LIST OF PROCEEDINGS
Greer v. General Dynamics Information Technology,
Inc. No. 19-1235. Judgment Entered April 13, 2020.
United States Court of Appeals for the Fourth Circuit.
Greer v. General Dynamics Information Technology,
Inc. No. 8:18-cv-01193-PWG. Judgment Entered February
21, 2019. United States District Court for the District of
Maryland, Southern Division.

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS  . . . . . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . .  iii
LIST OF PROCEEDINGS . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
OPINION BELOW  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RELEVANT STATUTORY/REGULATORY
PROVISIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 5
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
RULING TO DISMISS THE COMPLAINT
FOR FA ILURE TO STATE A CLA IM
WA S E R R O R A S P E T I T I O N E R
SUCCESSFULLY STATED SUFFICIENT
FA C T U A L A L L E G A T I O N S A N D
IDENTIFIED A COGNIZABLE LEGAL
THEORY FOR RELIEF . . . . . . . . . . . . . . . . . . . . . . .8

vi
Table of Contents
Page
PET I T ION ER ’ S C ONS T RUC T I V E
DISCH A RGE CL A I M IS BA SED ON
THE RETALIATION COMMITTED BY
GDI T I N REN EGI NG ON PL ACI NG
HIM IN ANOTHER POSITION WHICH
V IOL A T E D T H E A N T I - R E PR I S A L
PROVISIONS OF 10 USC § 2409 . . . . . . . . . . . . . . . 15
PETITIONER’S CLAIM FOR COMMON
L AW D E C E I T I S V I A B L E A N D
ACTIONABLE AS GDIT FRAUDULENTLY
MISREPRESENTED HIS SECURIT Y
CLEARANCE LEVEL  . . . . . . . . . . . . . . . . . . . . . . 18
REASONS FOR GRANTING THE PETITION . . . . 21
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

vii
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
FOURTH CIRCUIT, FILED APRIL 13, 2020  . . . 1a
A PPEN DI X B — M EMOR A N DU M
OPINION AND ORDER OF THE UNITED
STATES DISTRICT COURT FOR THE
DISTRICT OF MARYLAND, SOUTHERN
DIVISION, FILED FEBRUARY 21, 2019  . . . . . . . 9a
APPENDIX C — RELEVANT STATUTES
AND REGULATIONS 10 USC 2409 AND
48 CFR 7.503  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22a
A PPENDI X D — EX ECU TI V E ORDER
12829, OFFICE OF THE PRESIDENT OF
THE UNITED STATES, JANUARY 6, 1993 . . . . 40a

viii
TABLE OF CITED AUTHORITIES
Page
CASES:
Ashcroft v. Iqbal,
556 U.S. 662 (2009) . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Begay v. United States,
2016 U.S. Dist. LEXIS 139063
(D.N.M. Sep. 30, 2016, No. CIV 15-0358 JB/SCY) . . 8
Bell Atl. Corp. v. Twombly,
550 U.S. 544 (2007) . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Carter v. Ball,
33 F.3d 450 (4th Cir. 1994) . . . . . . . . . . . . . . . . . . . . .  17
Cejka v. Vectrus Sys. Corp.,
292 F. Supp. 3d 1175 (D. Colo. 2018) . . . . . . . . . . . . . 15
D. Ginsberg & Sons, Inc. v. Popkin,
285 U.S. 204 (1932) . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Deshaney v. Winnebago County Dep’t of Social
Services,
489 U.S. 189 (1989)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Hammerschmidt v. United States,
265 U.S. 182 (1924)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Lawson v. FMR LLC.
571 U.S. 429 (2014)  . . . . . . . . . . . . . . . . . . . . . . . .  16, 17

ix
Cited Authorities
Page
Morales v. TWA,
504 U.S. 374 (1992)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Morton v. Mancari,
417 U.S. 535 (1974) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Swierkiewicz v. Sorema N.A.,
534 U.S. 506 (2002) . . . . . . . . . . . . . . . . . . . . . .  9, 14, 21
United States ex rel. Cody v. Mantech Int’l Corp.,
746 F. App’x 166 (4th Cir. 2018) . . . . . . . . . . . . . . . . . 15
VF Corp. v. Wrexham Aviation Corp.,
112 Md. App. 703, 686 A.2d 647 (1996) . . . . . . . . . . . 19
Watt v. Alaska,
451 U.S. 259 (1981)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Young v. Southwestern Sav. & Loan Asso.,
509 F.2d 140 (5th Cir. 1975) . . . . . . . . . . . . . . . . . . . . 18
Zagami v. HP Enter. Servs., LLC,
212 F. Supp. 3d 185 (D.D.C. 2016) . . . . . . . . . . . . . . . 20
STATUTES AND OTHER AUTHORITIES:
10 USC § 2409 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
10 USC § 2409(a)(1)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

x
Cited Authorities
Page
10 USC § 2409(a)(1)(A) . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
10 USC § 2409(c)(2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
18 USC § 371 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 12
28 USC § 1254(1)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 USC § 1331 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
48 CFR § 37.104  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
48 CFR §§ 1552.237-76  . . . . . . . . . . . . . . . . . . . . . . . . 3, 11
48 CFR § 2902.101 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
48 CFR § 2902.101(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 9
58 CFR § 3479 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
DFARS Procedures, Guidance, and Information
(PGI) 237.503 . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
DFARS Procedures, Guidance, and Information
(PGI) 237.503(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Fed. R. Civ. P. 8(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 23
Fed. R. Civ. P. 8(e)(1)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

xi
Cited Authorities
Page
Fed. R. Civ. P. 8(f) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Fed. R. Civ. P. 12(b)(6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

1
OPINION BELOW
The unpublished opinion of the United States Court
of Appeals for the Fourth Circuit is included herein as
Appendix A, pp. 1a-8a. 808 Fed. App’x 191, 2020 U.S. App.
LEXIS 11546. The memorandum opinion of the United
States District Court for the District of Maryland, Southern
Division, is included herein as Appendix B, pp. 9a-21a. 2019
U.S. Dist. LEXIS 27596 *| 2019 WL 764018.
JURISDICTION
This Court has jurisdiction of this Petition to review
the judgment of the United States Court of Appeals for the
Fourth Circuit pursuant to 28 USC § 1254(1). The Fourth
Circuit’s per curiam opinion was entered on April 13,
2020. This Petition is timely as per the Court’s Order on
March 19, 2020, regarding COVID-19 deadline extensions.
The District Court had subject matter jurisdiction
pursuant to section 28 USC §1331, as it is a civil action
arising under federal law. The District Court’s opinion
was entered on February 21, 2019.
RELEVANT STATUTORY/REGULATORY
PROVISIONS
DFARS Subpart 237.503: “(c) The agency head
or designee shall employ procedures to ensure that
requirements for service contracts are vetted and
approved as a safeguard to prevent contracts from being
awarded or administered in a manner that constitutes
an unauthorized personal services contract. Contracting
officers shall follow the procedures at PGI 237.503, include

2
substantially similar certifications in conjunction with
service contract requirements, and place the certification
in the contract file. The program manager or other official
responsible for the requirement, at a level specified by
the agency, should execute the certification. In addition,
contracting officers and program managers should remain
aware of the descriptive elements at FAR 37.104(d) to
ensure that a service contract does not inadvertently
become administered as a personal-services contract.”
DFARS Procedures, Guidance, and Information
(PGI) 237.503: “The Government is normally required
to obtain its employees by direct hire under competitive
appointment procedures required by civil service laws.
Obtaining personal services by contract, rather than
by direct hire, circumvents those laws unless Congress
has specifically authorized acquisition of the services by
contractor.”
48 CFR § 2902.101 – Definitions: “(a) Commonly used
words and terms are defined in FAR subpart 2.1. This part
2902 gives DOL-specific meanings for some of these words
and terms and defines other words and terms commonly
used in the DOL acquisition process.
“(b) The following words and terms are used as defined
in this subpart unless the context in which they are
used clearly requires a different meaning, or a different
definition is prescribed for a particular part or portion
of a part:
“Contracting Officer’s Technical Representative means
the individual appointed by the contracting officer to
represent the Department of Labor’s programmatic
interests on a Department of Labor contract, task order,

3
or delivery order. This individual is responsible to the
contracting officer for overseeing receipt and acceptance
of goods/services by the Government, reporting on the
contractor’s performance, and approving/disapproving
payment to the contractor. Authority is otherwise limited
to giving technical direction to the contractor within the
framework of the contract (see 2901.603-71). This position
may go by other titles, such as: a technical point of contact
(TPOC) or Contacting Officer’s Representative (COR).”
48 CFR §§ 1552.237-76: “(b) Contractor personnel
shall not: (1) Be placed in a position where they are under
the supervision, direction, or evaluation of a Government
employee.”
48 CFR § 37.104 Personal services contracts.
“(a)  A personal services contract is characterized by
the employer-employee relationship it creates between
the Government and the contractor’s personnel. The
Government is normally required to obtain its employees
by direct hire under competitive appointment or other
procedures required by the civil service laws. Obtaining
personal services by contract, rather than by direct hire,
circumvents those laws unless Congress has specifically
authorized acquisition of the services by contract.
“(b)  Agencies shall not award personal services
contracts unless specifically authorized by statute (e.g., 5
USC 3109) to do so.
“(c)
“(1)  An employer-employee relationship under
a service contract occurs when, as a result of (i) the

4
contract’s terms or (ii) the manner of its administration
during performance, contractor personnel are subject
to the relatively continuous supervision and control of
a Government officer or employee. However, giving an
order for a specific article or service, with the right to
reject the finished product or result, is not the type of
supervision or control that converts an individual who is
an independent contractor (such as a contractor employee)
into a Government employee.
“(2)  Each contract arrangement must be judged in the
light of its own facts and circumstances, the key question
always being: Will the Government exercise relatively
continuous supervision and control over the contractor
personnel performing the contract? The sporadic,
unauthorized supervision of only one of a large number
of contractor employees might reasonably be considered
not relevant, while relatively continuous Government
supervision of a substantial number of contractor
employees would have to be taken strongly into account.”
18 USC § 371: “If two or more persons conspire
either to commit any offense against the United States,
or to defraud the United States, or any agency thereof in
any manner or for any purpose, and one or more of such
persons do any act to effect the object of the conspiracy,
each shall be fined under this title or imprisoned not more
than five years, or both.
“If, however, the offense, the commission of which
is the object of the conspiracy, is a misdemeanor only,
the punishment for such conspiracy shall not exceed the
maximum punishment provided for such misdemeanor.”

5
STATEMENT OF THE CASE
On June 13, 2018, Petitioner filed a Second Amended
Complaint (SAC), alleging that GDIT constructively
terminated his employment in violation of the Defense
Contractor Whistleblower Protection Act (DCWPA), 10
USC § 2409(c)(2) (Appendix C: pp. 22a-31a) (Count 1); and
that GDIT intentionally and maliciously concealed his true
security clearance level and failed to debrief him after his
employment separation in violation of Executive Order
12289 (National Industrial Security Program) (Appendix
D: pp. 40a-52a) (Count 2).
On August 17, 2018, GDIT moved to dismiss the
SAC for failure to state a claim under Rule 12(b)
(6). On February 21, 2019, the District Court issued a
Memorandum Opinion and Order granting GDIT’s Motion
to Dismiss with prejudice. Petitioner filed a Notice of
Appeal of the District Court’s Order on February 23, 2019.
On April 13, 2020, the United States Court of Appeals for
the Fourth Circuit affirmed the District Court decision
in an unpublished per curiam opinion.
GDIT provides inter alia information technology
services. Petitioner was employed by GDIT from
September 2011 until early 2015. Petitioner was working
as a Senior Technical Writer on a GDIT contract at the
Department of Research Programs within Walter Reed
National Military Medical Center (WRNMMC).
The discharge was constructive because GDIT
forced Petitioner to choose between working under the
supervision of a federal civilian employee or resigning
from his position at WRNMMC only, not from GDIT.

6
Such supervision arrangement violated pertinent DFARS
regulations. Petitioner’s claims are violations of the
DCWPA and Executive Order 12829 coupled with a
common law deceit cause of action.
Lisa Thompson, a GS-12 level federal civilian employee,
became Petitioner’s “supervisor” in late February or early
March 2015. (She was actually his “technical point of
contact” within the Department of Defense. See 48 CFR
§ 2902.101(b).) As GDIT’s contract with the Department
of Research Programs provided that “no one other than
a GDIT employee could be [Petitioner’s] supervisor,”
Petitioner was on notice that an unlawful arrangement
was perpetrated, conceivably to his legal detriment as a
participant in the subterfuge. Hence, Petitioner viewed
this supervisory situation as problematic.
On March 17, 2015, Petitioner’s supervisor at GDIT,
Edith Druktenis, told him to attend a meeting with her
and Erin Davis of GDIT’s Human Resources Department
instead of returning to work. GDIT’s vice president Julie
McGrath was also present in the office. Ms. Davis told
Petitioner that he could continue to work at WRNMMC
and be supervised by Ms. Thompson, or resign from his
position after which GDIT would place him in the Career
Assistance Program and find him a new position within
the company, same as it had done twice previously.
Petitioner signed the necessary resignation paperwork
from his position at WRNMMC only after the ultimatum by
Ms. Davis to do so. He understood that his resignation was a
condition precedent to continued employment by GDIT. He
was not offered a new position within GDIT despite applying
to over 100 positions. The resignation ploy was a ruse.

7
Furthermore, GDIT erroneously informed Petitioner
through email communications to his GDIT supervisor
at the Defense Centers of Excellence for Psychological
Health and Traumatic Brain Injury (DCoE) in August
2012 that he had been sponsored for a Public Trust
clearance when actually he had been sponsored for a
Secret clearance, a much higher clearance level. This
misinformation hindered securing a new position because
the most valuable opportunities required Secret clearance
and he was under the faulty understanding that he did not
have such clearance.
On learning his actual clearance level, Petitioner
secured a Secret-level position with a very sophisticated
DOD agency at a salary one-third higher than his last
GDIT position. Not knowing his correct clearance level
prevented him from earning five years’ worth of advancedlevel employment at a higher salary commensurate
with his Secret security clearance level. Moreover, this
misrepresentation was perpetrated as no debriefing in
which his true security clearance level would have been
related occurred, which was a violation of Executive Order
12829. (Appendix D, pp. 40a-52a) This misrepresentation
also was the underpinning for a common law claim of fraud
and deceit.
This Petition also addresses a significant and
important overarching federal issue: Whether the intent
of Congress in enacting the civil service laws encompassed
in the Federal Acquisition Regulations System can be
circumvented by transforming non-personal services
contracts between a contractor and a government agency
into a personal services contract.

8
“Under FAR 37.101, a non-personal services contract
means a contract under which the personnel rendering the
services are not subject, either by the contract’s terms or
by the manner of its administration, to the supervision
and control usually prevailing in relationships between
the Government and its employees.” Begay v. United
States (D.N.M. Sep. 30, 2016, No. CIV 15-0358 JB/SCY)
2016 U.S.Dist.LEXIS 139063, at *5, fn. 3.
Accordingly, as set forth in the Argument infra the
answer to that question is such Congressional intent
regarding being subject to agency supervision and control
cannot be so circumvented.
ARGUMENT
RULING TO DISMISS THE COMPLAINT FOR
FAILURE TO STATE A CLAIM WAS ERROR
AS PETITIONER SUCCESSFULLY STATED
SUFFICIENT FACTUAL ALLEGATIONS AND
IDENTIFIED A COGNIZABLE LEGAL THEORY
FOR RELIEF
This Court has stated:
Other provisions of the Federal Rules of Civil
Procedure are inextricably linked to Rule
8(a)’s simplified notice pleading standard.
Rule 8(e)(1) states that “no technical forms of
pleading or motions are required,” and Rule
8(f) provides that “all pleadings shall be so
construed as to do substantial justice.” Given
the Federal Rules’ simplified standard for
pleading, “[a] court may dismiss a complaint

9
only if it is clear that no relief could be granted
under any set of facts that could be proved
consistent with the allegations.”
Swierkiewicz v. Sorema N.A. (2002) 534 U.S. 506, 513-514.
(Citations omitted.)
Here, Petitioner has sedulously complied with the
simplified notice pleading standard. He has posited a
legal theory in his Second Amended Complaint under
which relief could be granted under facts consistent with
his allegations. These facts are that he was compromised
in his position with GDIT because he was knowledgeable
of the implications of being ostensibly supervised by a
Department of Defense employee when she was actually
a “technical point of contact” and not his supervisor. See
48 CFR § 2902.101(b).
GDIT put him in the position of being on a slippery
slope in his dealings with Ms. Thompson (and in his
status as its employee), as he knew of DFARS Subpart
237.503 and its caveat that “a service contract does not
inadvertently become administered as a personal-services
contract.” Acquiescing to Ms. Thompson’s remonstrances
that she was his “supervisor” put him in jeopardy of
violating that regulation. He was wary of the potentially
negative consequences to his position as a contractoremployee of GDIT for its violation.
Petitioner also knew of DFARS PGI 237.503 and its
significant language:
The Government is normally required to
obtain its employees by direct hire under

10
competitive appointment procedures required
by civil service laws. Obtaining personal
services by contract, rather than by direct
hire, circumvents those laws unless Congress
has specifically authorized acquisition of the
services by contractor. (Emphasis added.)
Petitioner knew that there was no such “specifically
authorized acquisition” by Congress regarding his
employment with GDIT. Again, he was put in the
position of being at variance with DFARS regulations and
potentially sabotaging his job.
Moreover, Petitioner knew that Federal Acquisition
Regulation (FAR) 7.503 differentiated between inherently
governmental functions and those that were not inherently
governmental functions. (Appendix C: pp. 32a-39a) It was
an inherently governmental function for a government
employee to be under the supervision of a DOD employee
like Ms. Thompson, and Petitioner was not a government
employee. Ipso facto at best his ambiguous and uncertain
status at WRNMMC was at odds with FAR 7.503 and he
was put in the position of violating that regulation.
Notwithstanding FAR 7.503(d)(13) and its obscuring
language about “[c]ontractors participating in any
situation where it might be assumed that they are agency
employees or representatives,” which was “not considered
to be an inherently governmental function,” Petitioner
relied on his knowledge of the DFARS provisions set forth
above to conclude that he was in a problematic position
because of Ms. Thompson’s reproofs that she was his
supervisor. (Appendix C: pp. 32a-39a)

11
Coupled with Ms. Thompson’s incessant verbal abuse
and unrelenting carping about his work, the inconsistency
between those DFARS provisions and FAR 7.503(d)(13),
forced Petitioner to confront GDIT about the patent
wrongness of the employment situation he was in. GDIT
forced him to choose between accepting Ms. Thompson
as his supervisor or forfeiting his job at WRNMMC only.
Reluctantly, he capitulated and chose to be reassigned
as promised by GDIT upon relinquishing his position at
WRNMMC. GDIT reneged on its promise of reassignment
and he was forced to outright resign.
Such resignation constituted an unlawful constructive
discharge. The motive for this discharge was GDIT’s
retaliation for Petitioner’s revealing the untoward
employment situation he was put in under Ms. Thompson
and not buckling under GDIT’s pressure to accept the
unacceptable status quo. Such status quo was unacceptable
because it conflicted with those DFARS provisions.
Additionally, this situation can be likened to one under
48 CFR 1552.237-76, which is an EPA regulation. Under
this regulation it is stated that: “(b) Contractor personnel
shall not: (1) Be placed in a position where they are under
the supervision, direction, or evaluation of a Government
employee.”
In tandem with the DFARS provisions of 237.503
rega rd i ng civ i l ser v ice law s requ i r i ng speci f ic
Congressional authorization for direct hire and the
illegality of circumventing those laws, it is logical for
this Court to consider whether the unclear and uncertain
language of FAR 7.503(d)(13) is contradicted by those
applicable DFARS provisions. (Appendix C: pp. 32a-39a)

12
Accordingly, Petitioner has posited a legal theory under
which relief can be granted.
Moreover, the DFARS provisions take precedence
over that FAR subsection. “Specific terms prevail over
the general in the same or another statute which otherwise
might be controlling.”  D. Ginsberg & Sons, Inc. v.
Popkin (1932) 285 U.S. 204, 208.  “Where there is no clear
intention otherwise, a specific statute will not be controlled
or nullified by a general one, regardless of the priority of
enactment.”  Morton v. Mancari (1974) 417 U.S. 535, 550551. “[I]t is a commonplace of statutory construction that
the specific governs the general.”  Morales v. TWA (1992)
504 U.S. 374, 385.
Therefore, as the DFARS provisions were promulgated
specifically for the Department of Defense, those pertinent
regulations already set forth are controlling irrespective
of any language in FAR 7.503(d)(13). (Appendix C: pp.
32a-39a)
Furthermore, Petitioner viably contends that there
was complicity between GDIT and Ms. Thompson and
her superiors which supports a finding of violation of 18
USC § 371:
If two or more persons conspire either to
commit any offense against the United States,
or to defraud the United States, or any agency
thereof in any manner or for any purpose, and
one or more of such persons do any act to effect
the object of the conspiracy, each shall be fined
under this title or imprisoned not more than five
years, or both.

13
If, however, the offense, the commission of which
is the object of the conspiracy, is a misdemeanor
only, the punishment for such conspiracy shall
not exceed the maximum punishment provided
for such misdemeanor.
It is tenable that this complicity involving the wrongful
“supervisory” relationship between Petitioner and Ms.
Thompson was tantamount to a conspiracy between GDIT
and her superiors, which unchecked, could have implicated
Petitioner as co-conspirator.
To conspire to defraud the United States means
primarily to cheat the Government out of
property or money, but it also means to interfere
with or obstruct one of its lawful governmental
functions by deceit, craft or trickery, or at least
by means that are dishonest. It is not necessary
that the Government shall be subjected to
property or pecuniary loss by the fraud, but
only that its legitimate official action and
purpose shall be defeated by misrepresentation,
chicane or the overreaching of those charged
with carrying out the governmental intention.
Hammerschmidt v. United States (1924) 265 U.S. 182, 188.
Certainly, the Department of Defense was being
“defrauded” by these employees at the Department of
Research Programs and GDIT in their machinations
to structure things so that Petitioner was under Ms.
Thompson’s control rather than being ultimately
accountable directly to GDIT. Furthermore, these
machinations were manifestly irreconcilable w ith

14
the Federal Acquisition Regulation requirements.
Accordingly, this case has implications beyond any
remedy for Petitioner for injury suffered, as a government
agency was affected adversely by their actions, to wit,
perpetration of fraud.
Moreover, it would be premature to determine that
no prima facie case has been pled.
[T]he precise requirements of a prima facie
case can vary depending on the context and
were “never intended to be rigid, mechanized,
or ritualistic.” “The specification . . . of the
prima facie proof required from respondent is
not necessarily applicable in every respect to
differing factual situations.” This Court “did
not purport to create an inflexible formulation”
for a prima facie case. “To measure a plaintiff’s
complaint against a particular formulation of
the prima facie case at the pleading stage is
inappropriate.” Before discovery has unearthed
relevant facts and evidence, it may be difficult
to define the precise formulation of the required
prima facie case in a particular case.
Swierkiewicz, supra, 534 U.S. 506, at p. 512. (Citations
omitted.)
As discussed, Petitioner set forth in his Second
Amended Complaint factual allegations which if deemed
true (let alone proven) constitute grounds for obtaining
judicial relief. He is entitled thus to conduct discovery
to “unearth” further relevant facts and evidence to
substantiate his case. The ruling granting GDIT’s motion
to dismiss was error.

15
PETITIONER’S CONSTRUCTIVE DISCHARGE
CLAIM IS BASED ON THE RETALIATION
COMMITTED BY GDIT IN RENEGING ON
PLACING HIM IN ANOTHER POSITION WHICH
VIOLATED THE ANTI-REPRISAL PROVISIONS
OF 10 USC § 2409
Petitioner alleged that GDIT constructively discharged
him because of the “choice” proffered by GDIT to
Petitioner to accept the new dynamic of Ms. Thompson
supervising him or be reassigned to another position.
But this reassignment contingency was chimerical for
though he acceded to this change of position, nothing
panned out into another position. GDIT did retaliate
against him for imparting the information regarding
the new supervisory paradigm and not acceding to this
new paradigm. This constructive discharge violated the
anti-reprisal provisions of 10 USC § 2409, the Defense
Contractor Whistleblower Protection Act (DCWPA).
(Appendix C, pp. 22a-31a)
“The DCWPA prohibits retaliation against employees
of defense contractors who report certain types of
misconduct. See 10 USC § 2409(a)(1).” United States ex rel.
Cody v. Mantech Int’l Corp. (4th Cir. 2018) 746 F.App’x 166,
178. “[I]n order to establish a prima facie case of unlawful
retaliation, a whistleblower plaintiff must establish that:
(1) he engaged in ‘protected activity’; (2) his employer
knew or was reasonably on notice that he was engaged
in protected activity; and (3) his employer took adverse
action against him as a result of his protected activity.”
Cejka v. Vectrus Sys. Corp. (D.Colo. 2018) 292 F. Supp. 3d
1175, 1192, fn. 7.

16
Here, the misconduct was in shifting authority over
Petitioner from a GDIT employee to Ms. Thompson. It
is cut and dry that GDIT violated the pertinent DFARS
237.503 provisions. The protected activity was Petitioner’s
refusal to kowtow to the new, wrongful arrangement with
Ms. Thompson as his direct supervisor. More significantly,
Petitioner’s factual allegations about these violations,
taken as true, and his assertion of DCWPA liability, make
his Second Amended Complaint plausible.
“A claim has facial plausibility when the plaintiff
pleads factual content that allows the court to draw
the reasonable inference that the defendant is liable
for the misconduct alleged.” Ashcroft v. Iqbal (2009)
556 U.S. 662, 678. “And, of course, a well-pleaded
complaint may proceed even if it strikes a sav vy
judge that actual proof of those facts is improbable,
and ‘that a recovery is very remote and unlikely.’”
Bell Atl. Corp. v. Twombly (2007) 550 U.S. 544, 556.
(Citation omitted.)
An informative case that supports this notion of facial
plausibility is Lawson v. FMR LLC (2014) 571 U.S. 429.
The Court held the Sarbanes-Oxley Act of 2002, 116
Stat. 745, protected whistleblowers, shielding employees
of private contractors and subcontractors who divulged
malfeasances committed by publicly traded securities
companies with whom they worked from retaliation for
revealing corporate fraud, for example, by investment
advisers, law firms, and accounting enterprises. The
subsequent 2010 Dodd-Frank amendment reiterated this
whistleblowing protection.
“ D o dd -F r a n k a l s o e st abl i s he s a c or p or at e
whistleblowing reward program, accompanied by a new

17
provision prohibiting any employer from retaliating
against ‘a whistleblower’ for providing information to
the SEC, participating in an SEC proceeding, or making
disclosures required or protected under Sarbanes-Oxley
and certain other securities laws.” Id. at p. 456.
Similarly, the DCWPA states that a contractor who
discloses to his employer information “he reasonably
believes is evidence” of “a violation of law, rule or
regulation related to a Department contract” cannot be
“discharged, demoted or otherwise discriminated against”
for having made the disclosure. See 10 USC § 2409(a)(1)
(A). (Appendix C: pp. 22a-31a)
Here, Petitioner disclosed that the new supervisory
ar rangement contradicted the per tinent DFA RS
provisions and that he could not be complicit in this
contradictory arrangement. Yet he was constructively
discharged both for making such disclosure and not
playing ball by not abiding with the new arrangement.
Hence, Petitioner’s claim of constructive discharge has
facial plausibility in its allegations of collusion between
GDIT and Ms. Thompson and her supervisors in usurping
the DFARS provisions. It also has facial plausibility in
its allegations of Ms. Thompson’s egregious mistreatment
of him.
“A constructive discharge occurs when an employer
creates intolerable working conditions in a deliberate
effort to force the employee to resign.” Carter v. Ball (4th
Cir. 1994) 33 F.3d 450, 459. “The general rule is that if
the employer deliberately makes an employee’s working
conditions so intolerable that the employee is forced

18
into an involuntary resignation, then the employer has
encompassed a constructive discharge and is as liable
for any illegal conduct involved therein as if it had
formally discharged the aggrieved employee.” Young v.
Southwestern Sav. & Loan Asso. (5th Cir. 1975) 509 F.2d
140, 144.
In addition to the retaliation for bucking against the
GDIT hierarchy in not deferring to the new situation
regarding Ms. Thompson’s supervision of him, Ms.
Thompson verbally assaulted and harassed him. She
became increasingly dictatorial and demanded that he
provide innumerable and exhaustive evidence of all the
work he generated within the year prior to working with
her and spoke belligerently to him about his attitude vis
a vis her absolute authority over him.
Her hostility and harping infringed beyond the
scope of his work duties entailing preparation of poster
competitions at WRNMMC as a technical writer. It also
made him fear physical assault. Such conditions can be
aptly characterized as “intolerable.” Petitioner’s claim of
constructive discharge thus is two-faceted. It was error
to find this claim not facially plausible.
PETITIONER’S CLAIM FOR COMMON LAW
DECEIT IS VIABLE AND ACTIONABLE AS
GDIT FRAUDULENTLY MISREPRESENTED
HIS SECURITY CLEARANCE LEVEL
The elements for fraudulent misrepresentation
are “(1) that the defendant made a false
representation to the plaintiff, (2) that its
falsity was either known to the defendant

19
or that the representation was made with
reckless indifference as to its truth, (3) that the
misrepresentation was made for the purpose of
defrauding the plaintiff, (4) that the plaintiff
relied on the misrepresentation and had the
right to rely on it, and (5) that the plaintiff
suffered compensable injury resulting from the
misrepresentation.”
VF Corp. v. Wrexham Aviation Corp. (1996) 112 Md.App.
703, 714, 686 A.2d 647, 653. (Citations omitted.)
Here, Petitioner was falsely informed that his security
clearance level was a Public Trust clearance when in
actuality it was a Secret clearance. Such falsity was
known to GDIT. This misrepresentation did defraud
Petitioner who relied on it to his detriment as he suffered
compensable injury from it, viz., denial of five years’ worth
of advanced-level employment at salary offers as high as
$60 per hour ($124,800 per year) due to GDIT’s willful
hiding of his Secret clearance status.
In a nutshell, Petitioner was unable to use his Secret
clearance status because he did not know he had such
clearance level. Its concealment was largely attributable
to GDIT ’s failure to debrief Petitioner when his
WRNMMC employment was terminated, as per Executive
Order 12829, the National Industrial Security Program
Operating Manual (NISPOM), codified as 58 CFR 3479.
(Appendix D, pp. 40a-52a), DoD 5220.22-M.
NISPOM was issued as part of the National
Industrial Security Program established
i n Exec ut ive O rder 1 2 , 8 2 9 t o prevent

20
the unauthorized disclosure of classified
information. See Exec. Order No. 12,289, 58
C.F.R. 3479, as amended 58 Fed. Reg. 3479
(January 6, 1993). The Executive Order
clearly states: “The purpose of this [National
Industrial Security Program] is to safeguard
classified information that may be released
or has been released to current, prospective,
or former contractors, licensees, or grantees
of United States agencies.” Id. § 101 (emphasis
added).
Zagami v. HP Enter. Servs., LLC (D.D.C. 2016) 212 F.
Supp. 3d 185, 225.
Such debriefing failure was a violation of this
Executive Order, codified in the Federal Register. As
per its codification, this Order has the weight of a federal
regulation and arguably as it has the force of law provides
a private right of action to vindicate injuries sustained
from its non-application. Regardless, the common
law deceit claim stands on its own and is meritorious
as laid out in setting forth the elements of fraudulent
misrepresentations and their application to the facts. It
was error to dismiss this claim.
Although this claim was not judged on the merits by
the Court of Appeal, it is proper to raise it anew in this
Petition. “But this argument is made for the first time in
petitioners’ brief to this Court: it was not pleaded in the
complaint, argued to the Court of Appeals as a ground
for reversing the District Court, or raised in the petition
for certiorari. We therefore decline to consider it here.”
Deshaney v. Winnebago County Dep’t of Social Services
(1989) 489 U.S. 189, 195, fn. 2.

21
Accordingly, if Petitioner did not raise this claim in
this Petition and the Petition were granted, it would be
unavailing to raise this claim in his brief. But as it has
been raised here now, this claim can be considered by
the Court in determining whether to grant this Petition.
Moreover, Petitioner asserts deceit with the requisite
particularity under Rule 9(b). “Rule 8(a)’s simplified
pleading standard applies to all civil actions, with
limited exceptions. Rule 9(b), for example, provides
for greater particularity in all averments of fraud or
mistake.”  Swierkiewicz, supra, 534 U.S. 506, at p. 513.
As to the Who, When, Where and How of the
particularity requirements: Who: Lisa Leshin, GDIT FSO
(Facility Security Officer)/Lisanne Bunce-Ozanian, GDIT
PM (Project Manager); When: August 2012; Where: on
the Internet; How: by email from Lisa Leshin to Lisanne
Bunce-Ozanian to Gregory Greer, GDIT Employee.
With this particularity requirement met, Petitioner’s
deceit claim for misrepresenting the actual security level
clearance he was given is airtight and actionable. To
reiterate, it was error to dismiss this claim. GDIT’s motion
to dismiss the SAC was improperly granted.
REASONS FOR GRANTING THE PETITION
As Justice Stevens has stated:
“The possibility that a lower court may have
incorrectly decided a federal question is, of
course, a relevant factor when this Court
decides whether to exercise its discretionary

22
certiorari jurisdiction. However, as Rule 17.1
of the Rules of this Court makes plain, our
certiorari jurisdiction is designed to serve
purposes broader than the correction of error
in particular cases:
“A review on writ of certiorari is not a matter
of right, but of judicial discretion, and will
be granted only when there are special and
important reasons therefor. The following,
while neither controlling nor fully measuring
the Court’s discretion, indicate the character
of reasons that will be considered.
“(a) When a federal court of appeals has
rendered a decision in conflict with the decision
of another federal court of appeals on the same
matter; or has decided a federal question in a
way in conflict with a state court of last resort;
or has so far departed from the accepted and
usual course of judicial proceedings, or so far
sanctioned such a departure by a lower court,
as to call for an exercise of this Court’s power
of supervision.
“(b) When a state court of last resort has
decided a federal question in a way in conflict
with the decision of another state court of last
resort or of a federal court of appeals.
“(c) When a state court or a federal court of
appeals has decided an important question of
federal law which has not been, but should be,
settled by this Court, or has decided a federal

23
question in a way in conflict with applicable
decisions of this Court.”
Watt v. Alaska (1981) 451 U.S. 259, 275, fn. 5. (conc. opn.
of Stevens, J.) (Emphasis added.)
This Court should grant this Petition and reconsider
the judgment of the Court of Appeals because its decision
is in conflict with the relevant DFARS 237.503 provisions
as discussed in the Argument of this Petition, “an
important question of federal law which has not been,
but should be, settled by this Court.” Moreover, it gives
license to contractors and federal agencies to obstruct
civil service laws regarding personal services contracts.
Second, the Court of Appeal misapplied the principles
of notice pleading as embodied in Federal Rule of
Civil Procedure 8(a). Petitioner’s SAC contained facts
consistent with his allegations for which relief could be
granted under the legal theories posited.
Third, a government agency, the Department of
Defense, was defrauded by the complicit arrangement
between GDIT and Ms. Thompson and her supervisors
at the Department of Research Programs at WRNMMC,
to make Ms. Thompson Petitioner’s “super visor”
notwithstanding regulations and contractual provisions
disallowing such relationship between a GDIT employee
and a federal employee, another “important question of
federal law.”

24
CONCLUSION
For the above and foregoing reasons, Petitioner
requests the issuance of a writ of certiorari to the United
States Court of Appeals for the Fourth Circuit.
			Respectfully Submitted,
Jeffrey M. Ginsberg
Briefs & Motions, Inc.
527 Via Assisi
Cathedral City, CA 92234
(760) 324-3830
jmginsberg1@aol.com

Ralph Greer
Counsel of Record
Law Office of Ralph Greer
10401 Grosvenor Place, Suite 1511
Rockville, Maryland 20852
(626) 536-8700
greerlaw.rsg@gmail.com

Attorneys for Petitioner
July 30, 2020

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE FOURTH
CIRCUIT, FILED APRIL 13, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-1235
GREGORY GREER,
Plaintiff-Appellant,
v.
GENERAL DYNAMICS INFORMATION
TECHNOLOGY, INC., A DELAWARE
CORPORATION DOING BUSINESS IN
THE STATE OF MARYLAND,
Defendant-Appellee.
March 19, 2020, Submitted; April 13, 2020, Decided
Appeal from the United States District Court
for the District of Maryland, at Greenbelt.
(8:18-cv-01193-PWG). Paul W. Grimm, District Judge.
Before WILKINSON, QUATTLEBAUM, and RUSHING,
Circuit Judges.
Affirmed by unpublished per curiam opinion.
PER CURIAM:

2a
Appendix A
From 2011 to 2015, Gregory Greer was employed by
General Dynamics Information Technology Incorporated
as a technical editor. Greer worked on projects arising
from General Dynamics’ contracts with the federal
government, often collaborating with employees of the
Department of Defense. In early 2015, after a personnel
shake-up on the project to which he was assigned at Walter
Reed National Military Medical Center, Greer claims
he was asked to work under the direct supervision of a
government employee. Believing such an arrangement
to be illegal, Greer brought it to the attention of his
superiors at General Dynamics. Ultimately given the
choice of accepting the arrangement and continuing
to work on the project at Walter Reed or resigning his
position, Greer chose to resign. He subsequently filed
this lawsuit, contending that his resignation had been
coerced by circumstance and therefore constituted an
unlawful constructive discharge. He also alleged that
General Dynamics had concealed from him his “true
security clearance level.” General Dynamics filed a motion
to dismiss for failure to state a claim, which the district
court granted. We affirm.
I.
A motion to dismiss for failure to state a claim “tests
the sufficiency of a complaint.” King v. Rubenstein, 825
F.3d 206, 214 (4th Cir. 2016). In order to survive such a
motion, the plaintiff must “‘state a claim to relief that is
plausible on its face.’” Ashcroft v. Iqbal, 556 U.S. 662, 678,
129 S. Ct. 1937, 173 L. Ed. 2d 868 (2009) (quoting Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 570, 127 S. Ct. 1955, 167 L.

3a
Appendix A
Ed. 2d 929 (2007)). A complaint that lacks sufficient factual
allegations or fails to identify a cognizable legal theory
cannot survive application of this standard. On appeal,
“we review de novo the grant of a motion to dismiss for
failure to state a claim.” Garnett v. Remedi Seniorcare of
Virginia, LLC, 892 F.3d 140, 142 (4th Cir. 2018).
A.
Greer’s primary contention is that General Dynamics
constructively discharged him by forcing him to choose
between the new staffing arrangement (thereby becoming
complicit in what he believed to be illegal behavior) and
resigning. That discharge, he claims, violated the “antireprisal” provisions of 10 U.S.C. § 2409, the Defense
Contractor Whistleblower Protection Act (DCWPA). “The
DCWPA prohibits retaliation against employees of defense
contractors who report certain types of misconduct.”
United States ex rel. Cody v. ManTech Int’l, Corp., 746 Fed.
Appx. 166, 178 (4th Cir. 2018) (argued but unpublished).
A contractor who discloses to his employer (or certain
statutorily identified government entities or officials)
information he “reasonably believes is evidence” of “a
violation of law, rule, or regulation related to a Department
contract . . . or grant” cannot be “discharged, demoted,
or otherwise discriminated against” for having made the
disclosure. 10 U.S.C. § 2409(a)(1)(A). Greer contends that
the Federal Acquisition Regulations (FAR), 48 C.F.R.
§§ 1 et seq., “prohibit[] a government employee from
directly supervising the employees of a contractor working
on a nonpersonal services contract.” Opening Br. 11. Thus,
Greer argues, when he informed General Dynamics of the

4a
Appendix A
new supervisory arrangement at Walter Reed, he made
a disclosure regarding a violation of a regulation related
to a Department contract—that is, a disclosure covered
by the DCWPA—and General Dynamics engaged in an
illegal reprisal when it forced him to choose between
participating in what he considered illegal conduct and
resigning.
In order to survive a motion to dismiss, Greer’s
DCWPA claim must allege facts sufficient to plausibly
show that he engaged in a protected disclosure, that his
employer was on notice of that disclosure, and that, as a
result of the disclosure, he was subjected to an adverse
employment action, such as a constructive discharge. See
United States ex rel. Cody v. Mantech Int’l Corp., 207 F.
Supp. 3d 610, 621 (E.D. Va. 2016) (“[I]n order to establish
a prima facie case of unlawful retaliation [under the
DCWPA], a whistleblower plaintiff must establish that:
(1) he engaged in protected activity; (2) his employer
knew or was reasonably on notice that he was engaged
in protected activity; and (3) his employer took adverse
action against him as a result of his protected activity.”),
aff’d 746 Fed. Appx. 166 (4th Cir. 2018).
The district court was unable to “discern from Greer’s
pleadings” how the new supervisory arrangement—in
which Greer would work under the direct supervision of
a federal government employee—”violated [the] FAR.”
Greer v. Gen. Dynamics Info. Tech., Inc., No. 8:18-cv01193-PWG, 2019 U.S. Dist. LEXIS 27596, 2019 WL
764018, at *4 (D. Md. Feb. 21, 2019). Nor has Greer brought
to our attention on appeal any authority supporting his

5a
Appendix A
contention that the new arrangement violated the law. He
points to FAR 7.503, which suggests that his argument is
premised on the notion that the arrangement constitutes
a contract being “used for the performance of [an]
inherently governmental function[],” which is prohibited.
48 C.F.R. § 7.503(a). But the specific provision on which
he relies—regarding “[c]ontractors participating in
any situation where it might be assumed that they are
agency employees or representatives”—is included in
a list of examples “generally not considered to be [an]
inherently governmental function[].” 48 C.F.R. § 7.503(d)
(13) (emphasis added). Thus, the only authority Greer cites
appears to undercut, not bolster, his claim.
It is not clear, then, that Greer made a protected
disclosure that would trigger the anti-reprisal protection
provided by the DCWPA. And even assuming he made
a protected disclosure, we agree with the district court
that an employee’s mere discomfort with “a supervisory
situation contrary to his employer’s government contract”
“simply do[es] not rise to the level of [an] intolerable”
condition necessary to transform a voluntary resignation
into a constructive discharge. Greer, 2019 U.S. Dist.
LEXIS 27596, 2019 WL 764018, at *4; see Williams
v. Giant Food Inc., 370 F.3d 423, 434 (4th Cir. 2004)
(“[D]ifficult or unpleasant working conditions are not so
intolerable as to compel a reasonable person to resign.”
(internal quotation marks omitted)). Either way, it is
evident that Greer has not advanced a plausible claim
under the DCWPA, so dismissal of the first theory of
liability set forth in his complaint was appropriate.

6a
Appendix A
B.
Greer’s second claim concerns General Dynamics’
purported concealment of his level of security clearance.
As outlined in the operative complaint, Greer accuses
General Dynamics of “erroneously inform[ing]” him
that “the security clearance [General Dynamics] had
sponsored [him] for was a Public Trust clearance when in
fact the clearance was a Secret clearance.” J.A. 88. This
“intentional[] and malicious[] conceal[ment]” of his “true
security clearance level,” Greer contends, was a “violation
of Executive Order 12829.” J.A. 90.
“As a general rule, ‘there is no private right of action to
enforce obligations imposed on executive branch officials
by executive orders.’” Chen Zhou Chai v. Carroll, 48 F.3d
1331, 1338 (4th Cir. 1995) (quoting Facchiano Constr. Co.
v. U.S. Dep’t of Labor, 987 F.2d 206, 210 (3d Cir. 1993)).
Thus, an executive order is only “privately enforceable” if
it “is issued pursuant to a statutory mandate or delegation
of congressional authority.” Id. (citing, inter alia, U.S.
Dep’t of Health & Human Servs. v. Fed. Labor Relations
Auth., 844 F.2d 1087, 1095-1096 (4th Cir. 1987) (en banc)
(“The executive branch . . . simply has no power to make
the law; that power rests exclusively with Congress.”)).
Executive Order 12829 was issued by President Bush in
January 1993. The order “establishes a National Industrial
Security Program to safeguard Federal Government
classified information that is released to contractors,
licensees, and grantees of the United States Government.”
Exec. Order No. 12829, 58 Fed. Reg. 3479 (Jan. 6, 1993).

7a
Appendix A
The order contains various directives to executive
branch officials designed to effectuate this presidential
policy objective. Nothing in the order, however, indicates
that it was issued pursuant to a statutory mandate or
congressional delegation or otherwise suggests that it was
intended to create a privately enforceable right of action.
On appeal, Greer has identified no authority suggesting
otherwise. Instead he contends, for the first time, that his
complaint raises a claim for “common law deceit.” Opening
Br. 4, 14. Although we retain the discretion to address
arguments not previously raised in the first instance
before a lower tribunal, “[i]n this circuit, we exercise that
discretion sparingly.” In re Under Seal, 749 F.3d 276, 285
(4th Cir. 2014). “Absent exceptional circumstances . . . we
do not consider issues raised for the first time on appeal.”
Volvo Const. Equip. N. Am., Inc. v. CLM Equip. Co., 386
F.3d 581, 603 (4th Cir. 2004); see also Muth v. United
States, 1 F.3d 246, 250 (4th Cir. 1993) (“As this court has
repeatedly held, issues raised for the first time on appeal
generally will not be considered. Exceptions to this
general rule are made only in very limited circumstances
. . . .” (citations omitted)). The circumstances of this case
fall well short of exceptional, and declining to address
Greer’s newly raised argument will not “result in a
miscarriage of justice.” Nat’l Wildlife Fed’n v. Hanson,
859 F.2d 313, 318 (4th Cir. 1988). We therefore will not
address the argument raised for the first time on appeal.
Left without a cognizable cause of action, Greer’s second
theory of liability also fails to state a claim.
***

8a
Appendix A
The district court determined that Greer’s complaint
could not survive the testing of a motion to dismiss.
Nothing on appeal indicates this conclusion was in
error. Accordingly, the decision of the district court is
affirmed. We dispense with oral argument because the
facts and legal contentions are adequately presented in
the materials before this court and argument would not
aid the decisional process.
AFFIRMED

9a
Appendix B
APPENDIX B — MEMORANDUM
OPINION AND
ORDER OF THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF MARYLAND,
SOUTHERN DIVISION, FILED
FEBRUARY 21, 2019
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
SOUTHERN DIVISION
Case No.: PWG-18-1193
GREGORY GREER,
Plaintiff,
v.
GENERAL DYNAMICS INFORMATION
TECHNOLOGY, INC.,
Defendant.
February 21, 2019, Filed
MEMORANDUM OPINION AND ORDER
G enera l D y na m ics In for mat ion Technolog y,
Inc. (“General Dynamics” or “GDIT”) is a company
that “provides information technology (IT), systems
engineering, professional services and simulation and
training to customers in the defense, federal civilian
government, health, homeland security, intelligence,
state and local government and commercial sectors.”

10a
Appendix B
Second Am. Compl. ¶ 4.2, ECF No. 16.1 General Dynamics
employed Plaintiff Gregory Greer from September
2011 until he resigned in early 2015, id. ¶ 4.5, at which
time Greer was working as a Senior Technical Editor
on a General Dynamics contract at the Department
of Research Programs within Walter Reed National
Military Medical Center (“Walter Reed”), id. ¶ 4.7. In
Greer’s view, his resignation was constructive discharge
because General Dynamics forced him to choose between
resigning or working under the supervision of a federal
employee, which he insists would have been a violation
of a federal regulation, exposing him to criminal
liability for conspiracy. He claims that, in the process
of constructively discharging him, General Dynamics
violated the Whistleblower Protection Act, 10 U.S.C.
§ 2409, and Executive Order 12829. Because he fails to
state a claim under the federal statute or the Executive
Order, despite having had the opportunity to amend to
address his pleading deficiencies, I will grant General
Dynamics’s Motion to Dismiss, ECF No. 23, 2 and dismiss
Greer’s case with prejudice.
Background
Lisa Thompson, who is “a GS-12-level federal civilian
employee,” became Greer’s supervisor in late February
1. For purposes of resolving Defendant’s Motion to Dismiss,
I accept Plaintiff’s well-pleaded allegations as true. See Aziz v.
Alcolac, 658 F.3d 388, 390 (4th Cir. 2011).
2. The parties fully briefed the motion. ECF Nos. 23-1, 24,
25. A hearing is not necessary. See Loc. R. 105.6.

11a
Appendix B
or early March 2015. Second Am. Compl. ¶¶ 4.9-4.10. He
viewed her supervision as problematic because General
Dynamics’s “contract with the Department of Research
programs” provides “that no one other than a GDIT
employee could be Plaintiff’s supervisor,” and he raised
this issue with his “Contracting Officer’s Representative,
Mr. Jeremy Nelson” on March 12, 2015. Id. ¶¶ 4.144.15. Ruben Acosta, Deputy Chief of the Department
of Research Programs for the United States Navy, told
Greer: “Either you work for [Thompson] or you can’t work
here anymore. Is that clear?” Id. ¶¶ 4.9, 4.11. In Greer’s
view, Acosta’s statement “was a per se violation of Federal
Acquisition Regulation (FAR) 7.503(d)(13). Id. ¶ 4.12.
Greer took March 16, 2015 off “to allow GDIT time”
to comply with its contract. Second Am. Compl. ¶ 4.15.
The next day, his supervisor at General Dynamics, Edith
Druktenis, told him to attend a meeting with her and
Erin Davis of General Dynamics’s Human Resources
Department instead of returning to work. Id. ¶¶ 4.16-4.17.
General Dynamics›s Vice President Julie McGrath also
was present. Id. ¶ 4.21. Davis informed him that he could
either return to work at Walter Reed “and be supervised
by Ms. Thompson” or “resign from this position,” in which
case General Dynamics would “place [him] in the Career
Assistance Program” and “[f]ind [him] a new position in
the company.” Id. ¶ 4.20.
Greer “signed the necessary resignation paperwork
from his position at Walter Reed” because he believed
that to return to Walter Reed “and be supervised by Ms.
Thompson . . . would have forced him to conspire and

12a
Appendix B
collude with GDIT in a conspiracy to violate the Federal
Acquisition Regulations.” Id. ¶ 4.22. Asserting that he
did not “want[] to give up his employment with GDIT,”
he explains that he signed the paperwork “based on Ms.
Davis’ promise to find Plaintiff a new position within
GDIT” and his understanding that resignation “was a
condition precedent to continued employment by GDIT.”
Id. ¶¶ 4.23-4.26.
Greer was not offered a new position with General
Dynamics despite “appl[ying] to well over 100 new positions
within GDIT.” Second Am. Compl. ¶ 4.29. He claims that,
between May 2012 and September 2013, while he was
working “on a GDIT contract at the Defense Centers of
Excellence for Psychological Health and Traumatic Brain
Injury,” id. ¶ 4.6, General Dynamics “had erroneously
informed Plaintiff (through email communication to his
GDIT supervisor) that the security clearance GDIT had
sponsored Plaintiff for was a Public Trust clearance when
in fact the clearance was a Secret clearance.” Id. ¶ 4.30.
He claims that, after he resigned, this misinformation
hindered his acquisition of a new position because “the
most valuable opportunities Defendant had for Plaintiff
were those with the Secret clearance requirement, which
Defendant concealed from Plaintiff.” Id. ¶ 4.27. Once he
knew that he had the higher clearance, he claims, he “was
immediately able to secure a Secret-level position with a
very sophisticated DOD agency working on Secret-level
material at a salary exactly one-third higher than his last
position at GDIT.” Id. ¶ 4.37. He claims that not knowing
about his clearance prevented him from earning “five
years’ worth of advanced-level employment” at a higher
salary. Id. ¶ 4.39.

13a
Appendix B
Greer lodges two claims against General Dynamics.
Second Am. Compl. ¶ 5; see also Compl., ECF No. 1; Am.
Compl., ECF No. 3. First, he claims that “Defendant
constructively terminated Plaintiff after Plaintiff made
protected disclosures under 10 U.S.C. § 2409(c)(2),”
the Defense Contractor Whistleblower Protection Act
(“WPA”), that is, he disclosed “that a federal civilian
employee had been appointed Plaintiff’s supervisor,
in violation of FAR 7.503(d)(13). Second Am. Compl.
¶ 5.1.1. He views his resignation as constructive discharge
because “further employment by GDIT would [have]
require[d] the Plaintiff to conspire and collude with
GDIT to violate Federal Acquisition Regulations.” Id. He
alleges that the Department of Defense (“DOD”) Office
of Inspector General (“OIG”) investigated his allegations
and “confirmed that Plaintiff had made four legitimate
protected-basis claims pursuant to 10 U.S.C. § 2409(c)(2).”
Second Am. Compl. ¶ 4.24. Second, he claims that General
Dynamics “intentionally and maliciously concealed from
Plaintiff Plaintiff’s true security clearance level for which
Defendant had sponsored Plaintiff and then failed to
debrief Plaintiff after Plaintiff’s employment separation,
in violation of Executive Order 12829 – National Industrial
Security Program.” Id. ¶ 5.1.2.
General Dynamics filed a motion to dismiss Plaintiff’s
Amended Complaint, after which I held a conference call,
permitted Greer to file another amended complaint to
address the deficiencies General Dynamics perceived in
his pleadings, and found the initial motion to dismiss to be
moot. ECF Nos. 8, 15, 17. Greer filed his Second Amended
Complaint, and General Dynamics filed the Motion to
Dismiss that now is pending, ECF No. 23.

14a
Appendix B
Standard of Review
General Dynamics argues that Greer has not stated
a claim against it. Def.’s Mem. 1. Federal Rule of Civil
Procedure 12(b)(6) provides for “the dismissal of a
complaint if it fails to state a claim upon which relief can be
granted.” Velencia v. Drezhlo, No. RDB-12-237, 2012 U.S.
Dist. LEXIS 176754, 2012 WL 6562764, at *4 (D. Md. Dec.
13, 2012). This rule’s purpose “is to test the sufficiency
of a complaint and not to resolve contests surrounding
the facts, the merits of a claim, or the applicability of
defenses.” Id. (quoting Presley v. City of Charlottesville,
464 F.3d 480, 483 (4th Cir. 2006)). To that end, the Court
bears in mind the requirements of Fed. R. Civ. P. 8,
Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 127 S. Ct.
1955, 167 L. Ed. 2d 929 (2007), and Ashcroft v. Iqbal, 556
U.S. 662, 129 S. Ct. 1937, 173 L. Ed. 2d 868 (2009), when
considering a motion to dismiss pursuant to Rule 12(b)
(6). Specifically, a complaint must contain “a short and
plain statement of the claim showing that the pleader is
entitled to relief,” Fed. R. Civ. P. 8(a)(2), and must state
“a plausible claim for relief,” as “[t]hreadbare recitals
of the elements of a cause of action, supported by mere
conclusory statements, do not suffice,” Iqbal, 556 U.S.
at 678-79. See Velencia, 2012 U.S. Dist. LEXIS 176754,
2012 WL 6562764, at *4 (discussing standard from Iqbal
and Twombly). “A claim has facial plausibility when the
plaintiff pleads factual content that allows the court to
draw the reasonable inference that the defendant is liable
for the misconduct alleged.” Iqbal, 556 U.S. at 663.

15a
Appendix B
Discussion
Whistleblower Claim
[W]histleblowing involves “the making of a
protected disclosure.” 5 C.F.R. § 1209.4(b).
Federal law prohibits certain agency actions
in response to receiving such disclosures from
whistleblowers. See 5 U.S.C. § 2302. Relevant
here, a federal agency cannot take—or fail to
take—”a personnel action” due to
any disclosure of information by an
employee . . . which the employee . . .
reasonably believes evidences
(i) any violation of any law, rule, or
regulation . . . .
5 U.S.C. § 2302(b)(8). As part of these safeguards,
an agency cannot fire an employee for making
a protected disclosure. See 5 U.S.C. § 2302(a).
Flynn v. United States Sec. & Exch. Comm’n, 877 F.3d
200, 203-04 (4th Cir. 2017) (footnote omitted). The elements
of a whistleblower claim are:
“(1) the acting official has the authority to take,
recommend, or approve any personnel action;
(2) the aggrieved employee made a protected
disclosure; (3) the acting official used his
authority to take, or refuse to take, a personnel

16a
Appendix B
action against the aggrieved employee; and (4)
the protected disclosure was a contributing
factor in the agency’s personnel action.”
Id. at 204 (quoting Chambers v. Dep’t of Interior, 602 F.3d
1370, 1376 (Fed. Cir. 2010)).
Here, General Dynamics does not challenge its
official’s authority to terminate Greer’s employment.
Assuming for the sake of argument that Greer reasonably
believed that a federal employee’s supervision of him
was in violation of the law, such that he made a protected
disclosure, I will turn to whether his resignation was
indeed a constructive discharge. Flynn, 877 F.3d at 204.
“Constructive discharge occurs when an employer
deliberatively makes an employee’s working conditions
intolerable and thereby forces him to quit his job.”
Munday v. Waste Mgmt. of N. Am., Inc., 126 F.3d 239,
244 (4th Cir. 1997) (internal quotation marks and citations
omitted). The employee must prove that the employer
acted deliberately and that his working conditions were
intolerable. Id. The Court considers “’the objective
perspective of a reasonable person’” in determining
“whether an employment environment is intolerable.”
Lacasse v. Didlake, Inc., 712 F. App’x 231, 239 (4th Cir.
2018) (quoting Heiko v. Colombo Sav. Bank, F.S.B., 434
F.3d 249, 262 (4th Cir. 2006)).
Greer alleges that his working conditions were
intolerable because working under the supervision of
Thompson, a federal employee, “would [have] require[d]

17a
Appendix B
the Plaintiff to conspire and collude with GDIT to violate
Federal Acquisition Regulations,” specifically FAR
7.503(d)(13). Second Am. Compl. ¶ 5.1.1. Section 7.503
provides:
(a) Contracts shall not be used for the
performance of inherently governmental
functions.
...
(d) The following is a list of examples of functions
generally not considered to be inherently
governmental functions. However, certain
services and actions that are not considered
to be inherently governmental functions may
approach being in that category because of the
nature of the function, the manner in which
the contractor performs the contract, or the
manner in which the Government administers
contractor performance. . . .
...
(13) Contractors participating in any situation
where it might be assumed that they are agency
employees or representatives.
See https://www.acquisition.gov/content/7503-policy (GSA
website).

18a
Appendix B
Greer argues that “[e]nforcement of and compliance
with the Federal Acquisition Regulations is a legitimate
government function,” and “[i]f two or more people
agree to take an action that will obstruct a legitimate
government function that agreement is a conspiracy
and violation of 18 U.S.C. § 371.” Pl.’s Opp’n ¶¶ 1.4-1.5. I
cannot discern from Greer’s pleadings (or his Opposition
to General Dynamics’s Motion to Dismiss), however, how
Thompson’s supervision of him violated FAR 7.503(d)(13),
nor how he would have been conspiring to violate this
regulation by reporting to Thompson. 3 Thus, he has not
alleged a forced “conspiracy” that would create intolerable
working conditions.
Certainly, his allegations suggest that Thompson’s
supervision of him may have been a breach of General
Dynamics’s “contract with the Department of Research
programs,” which, according to Plaintiff, provides “that
no one other than a GDIT employee could be Plaintiff’s
supervisor.” Second Am. Compl. ¶ 4.15. And, it is plausible
that an employee could be displeased with and even
uncomfortable with a supervisory situation contrary
to his employer’s government contract. But, those
circumstances, albeit undesirable, simply do not rise to the
level of intolerable when they do not affect the propriety of
the employee’s (as opposed to the company’s or agency’s)
actions. See U.S. Equal Employment Opportunity
Comm’n v. MVM, Inc., No. TDC-17-2864, 2018 U.S. Dist.
LEXIS 81268, 2018 WL 2197727, at *12 (D. Md. May 14,
3. This, of course, also begs the question whether Greer’s
disclosure was protected, for it would not be protected if the
supervision was not in violation of the law.

19a
Appendix B
2018) (“Constructive discharge claims are held to a high
standard, and even truly awful working conditions may
not rise to the level of constructive discharge.” (quoting
Tawwaab v. Va. Linen Serv., Inc., 729 F. Supp. 2d 757,
783 (D. Md. 2010))). Thus, Greer could have chosen to
continue to work under Thompson’s supervision; he was
not forced to resign. Consequently, he has not alleged a
constructive discharge. See Munday, 126 F.3d at 244.
Therefore, he has not alleged a personnel action to state
a claim for violation of the Whistleblower Protection Act.
See Flynn, 877 F.3d at 204.
Executive Order 12829 Claim
General Dynamics contends that “Plaintiff’s claim
under Executive Order 12829 fails because that document
does not create a private right of action.” Def.’s Mem. 12.
Indeed, “a cause of action is a set of facts which would
justify judgment for the plaintiff under some recognized
legal theory of relief.” Paul Mark Sandler & James K.
Archibald, Pleading Causes of Action in Maryland 1.2
(MICPEL 4th ed. 2008); see Pepper v. Johns Hopkins
Hosp., 111 Md. App. 49, 680 A.2d 532, 542 (Md. Ct. Spec.
App. 1996), aff’d, 346 Md. 679, 697 A.2d 1358 (Md. 1997).
In his claim for a violation of Executive Order 12829,
Greer has not identified either a statutory or a common
law theory of relief that this Court recognizes. As General
Dynamics explains,
Signed by President George H.W. Bush on
January 6, 1993, Executive Order 12829

20a
Appendix B
established a National Industrial Security
Program in order to “safeguard classified
information that may be released or has
been released to current, prospective, or
former contractors, licensees, or grantees
of United States agencies.” Exec. Order No.
12829 § 101(a), 58 Fed. Reg. 3479 (Jan. 8,
1993). That Order calls for the publication
of a National Industrial Security Program
Operating Manual (“NISPOM”) prescribing
“specific requirements, restrictions, and
other safeg uards that are necessar y to
preclude unauthorized disclosure and control
authorized disclosure of classified information
to contractors, licensees, or grantees.” Id.
§ 201(a).
Def.’s Mem. 12. And, Greer appears to concede as much,
stating in his Opposition that his “complaint concerning
the defendant’s failure to inform him of his security level
is damnum absque injuria,” Pl.’s Opp’n ¶ 3.1.4, that
is, “[l]oss or harm for which there is no legal remedy,”
damnum sine injuria, Black’s Law Dictionary (7th ed.
2000) (noting that the phrase is “[a]lso termed damnum
absque injuria”).
Thus, it is undisputed that no cause of action exists
in this Court for a violation of Executive Order 12829.
Therefore, Greer has not pleaded facts for which this
Court could provide relief, if he were to prevail on the
merits. As Greer has no cause of action for a violation of
Executive Order 12829, see Sandler & Archibald, supra, at
1, this claim must be dismissed. See Fed. R. Civ. P. 12(b)(6).

21a
Appendix B
Additionally, when a plaintiff has had the opportunity
to amend in response to a defendant’s identification of
pleading deficiencies but still fails to state a claim, as
Greer has here, dismissal with prejudice is appropriate
because another opportunity to amend would be futile.
See Weigel v. Maryland, 950 F. Supp. 2d 811, 825-26 (D.
Md. 2013). Accordingly, dismissal of Greer’s claims with
prejudice is appropriate. See id.
ORDER
Accordingly, it is, this 21st day of February, 2019,
hereby ORDERED that
1.

Defendant’s Motion to Dismiss, ECF No. 23, IS
GRANTED;

2.

Plaintiff’s Complaint IS DISMISSED WITH
PREJUDICE; and

3.

The Clerk SHALL CLOSE this case.
/s/ Paul W. Grimm
United States District Judge

22a
Appendix C STATUTES AND
APPENDIX C — RELEVANT
REGULATIONS 10 USC 2409 AND 48 CFR 7.503

10 USCS § 2409
Current through Public Law 116-149,
approved July 14, 2020.
§ 2409. Contractor employees: protection from reprisal
for disclosure of certain information
(a) Prohibition of reprisals.
(1) An employee of a contractor, subcontractor,
grantee, or subgrantee or personal ser vices
contractor may not be discharged, demoted, or
otherwise discriminated against as a reprisal for
disclosing to a person or body described in paragraph
(2) information that the employee reasonably believes
is evidence of the following:
(A) Gross mismanagement of a Department
of Defense contract or grant, a gross waste
of Department funds, an abuse of authority
relating to a Department contract or grant, or
a violation of law, rule, or regulation related to a
Department contract (including the competition
for or negotiation of a contract) or grant.
(B) Gross mismanagement of a National
Aeronautics and Space Administration contract
or grant, a gross waste of Administration

23a
Appendix C
funds, an abuse of authority relating to
an Administration contract or grant, or a
violation of law, rule, or regulation related
to an Administration contract (including the
competition for or negotiation of a contract) or
grant.
(C) A substantial and specific danger to public
health or safety.
(2) The persons and bodies described in this
paragraph are the persons and bodies as follows:
(A) A Member of Congress or a representative
of a committee of Congress.
(B) An Inspector General.
(C) The Government Accountability Office.
(D) An employee of the Department of Defense
or the National Aeronautics and Space
Administration, as applicable, responsible for
contract oversight or management.
(E) An authorized official of the Department of
Justice or other law enforcement agency.
(F) A court or grand jury.
(G) A management official or other employee
of the contractor or subcontractor who has

24a
Appendix C
the responsibility to investigate, discover, or
address misconduct.
(3) For the purposes of paragraph (1)—
(A) an employee who initiates or provides
evidence of contractor or subcontractor
misconduct in any judicial or administrative
proceeding relating to waste, fraud, or abuse
on a Department of Defense or National
Aeronautics and Space Administration contract
or grant shall be deemed to have made a
disclosure covered by such paragraph; and
(B) a reprisal described in paragraph (1)
is prohibited even if it is undertaken at the
request of a Department or Administration
official, unless the request takes the form of
a nondiscretionary directive and is within the
authority of the Department or Administration
official making the request.
(b) Investigation of complaints.
(1) A person who believes that the person has been
subjected to a reprisal prohibited by subsection (a)
may submit a complaint to the Inspector General
of the Department of Defense, or the Inspector
General of the National Aeronautics and Space
Administration in the case of a complaint regarding
the National Aeronautics and Space Administration.
Unless the Inspector General determines that the

25a
Appendix C
complaint is frivolous, fails to allege a violation of
the prohibition in subsection (a), or has previously
been addressed in another Federal or State
judicial or administrative proceeding initiated
by the complainant, the Inspector General shall
investigate the complaint and, upon completion of
such investigation, submit a report of the findings
of the investigation to the person, the contractor
concerned, and the head of the agency.
(2)
(A) Except as provided under subparagraph
(B), the Inspector General shall make a
determination that a complaint is frivolous,
fails to allege a violation of the prohibition
in subsection (a), or has previously been
addressed in another Federal or State judicial
or administrative proceeding initiated by
the complainant or submit a report under
paragraph (1) within 180 days after receiving
the complaint.
(B) If the Inspector General is unable to
complete an investigation in time to submit a
report within the 180-day period specified in
subparagraph (A) and the person submitting the
complaint agrees to an extension of time, the
Inspector General shall submit a report under
paragraph (1) within such additional period of
time, up to 180 days, as shall be agreed upon
between the Inspector General and the person
submitting the complaint.

26a
Appendix C
(3) The Inspector General may not respond to any
inquiry or disclose any information from or about
any person alleging the reprisal, except to the extent
that such response or disclosure is—
(A) made with the consent of the person alleging
the reprisal;
(B) made in accordance with the provisions of
section 552a of title 5 or as required by any other
applicable Federal law; or
(C) necessary to conduct an investigation of the
alleged reprisal.
(4) A complaint may not be brought under this
subsection more than three years after the date on
which the alleged reprisal took place.
(c) Remedy and enforcement authority.
(1) Not later than 30 days after receiving an
Inspector General report pursuant to subsection (b),
the head of the agency concerned shall determine
whether there is sufficient basis to conclude that the
contractor concerned has subjected the complainant
to a reprisal prohibited by subsection (a) and shall
either issue an order denying relief or shall take one
or more of the following actions:
(A) Order the contractor to take affirmative
action to abate the reprisal.

27a
Appendix C
(B) Order the contractor to reinstate the person
to the position that the person held before the
reprisal, together with compensatory damages
(including back pay), employment benefits, and
other terms and conditions of employment that
would apply to the person in that position if the
reprisal had not been taken.
(C) Order the contractor to pay the complainant
an amount equal to the aggregate amount of
all costs and expenses (including attorneys’
fees and expert witnesses’ fees) that were
reasonably incurred by the complainant for,
or in connection with, bringing the complaint
regarding the reprisal, as determined by the
head of the agency.
(2) If the head of an executive agency issues an order
denying relief under paragraph (1) or has not issued
an order within 210 days after the submission of a
complaint under subsection (b), or in the case of an
extension of time under paragraph (b)(2)(B), not later
than 30 days after the expiration of the extension of
time, and there is no showing that such delay is due
to the bad faith of the complainant, the complainant
shall be deemed to have exhausted all administrative
remedies with respect to the complaint, and the
complainant may bring a de novo action at law or
equity against the contractor to seek compensatory
damages and other relief available under this section
in the appropriate district court of the United States,
which shall have jurisdiction over such an action

28a
Appendix C
without regard to the amount in controversy. Such
an action shall, at the request of either party to the
action, be tried by the court with a jury. An action
under this paragraph may not be brought more than
two years after the date on which remedies are
deemed to have been exhausted.
(3) An Inspector General determination and an
agency head order denying relief under paragraph
(2) shall be admissible in evidence in any de novo
action at law or equity brought pursuant to this
subsection.
(4) Whenever a person fails to comply with an order
issued under paragraph (1), the head of the agency
shall file an action for enforcement of such order
in the United States district court for a district in
which the reprisal was found to have occurred. In
any action brought under this paragraph, the court
may grant appropriate relief, including injunctive
relief, compensatory and exemplary damages, and
reasonable attorney fees and costs. The person upon
whose behalf an order was issued may also file such
an action or join in an action filed by the head of the
agency.
(5) Any person adversely affected or aggrieved by an
order issued under paragraph (1) may obtain review
of the order’s conformance with this subsection, and
any regulations issued to carry out this section, in
the United States court of appeals for a circuit in
which the reprisal is alleged in the order to have
occurred. No petition seeking such review may be

29a
Appendix C
filed more than 60 days after issuance of the order
by the head of the agency. Review shall conform to
chapter 7 of title 5 [5 USCS §§ 701 et seq.]. Filing
such an appeal shall not act to stay the enforcement
of the order of the head of an agency, unless a stay
is specifically entered by the court.
(6) The legal burdens of proof specified in section
1221(e) of title 5 shall be controlling for the purposes
of any investigation conducted by an Inspector
General, decision by the head of an agency, or judicial
or administrative proceeding to determine whether
discrimination prohibited under this section has
occurred.
(7) The rights and remedies provided for in this
section may not be waived by any agreement, policy,
form, or condition of employment.
(d) Notification of employees.   The Secretary of Defense
and the Administrator of the National Aeronautics and
Space Administration shall ensure that contractors
and subcontractors of the Department of Defense and
the National Aeronautics and Space Administration,
as applicable, inform their employees in writing of the
rights and remedies provided under this section, in the
predominant native language of the workforce.
(e) Exceptions.
(1) This section shall not apply to any element of the
intelligence community, as defined in section 3(4) of
the National Security Act of 1947 (50 U.S.C. 3003(4)).

30a
Appendix C
(2) This section shall not apply to any disclosure made
by an employee of a contractor, subcontractor, or
grantee of an element of the intelligence community
if such disclosure—
(A) relates to an activity of an element of the
intelligence community; or
(B) was discovered during contract, subcontract,
or grantee services provided to an element of
the intelligence community.
(f) Construction. Nothing in this section may be
construed to authorize the discharge of, demotion of, or
discrimination against an employee for a disclosure other
than a disclosure protected by subsection (a) or to modify
or derogate from a right or remedy otherwise available
to the employee.
(g) Definitions.   In this section:
(1) The term “agency” means an agency named in
section 2303 of this title [10 USCS § 2303].
(2) The term “head of an agency” has the meaning
provided by section 2302(1) of this title [10 USCS
§ 2302(1)].
(3) The term “contract” means a contract awarded
by the head of an agency.
(4) The term “contractor” means a person awarded
a contract with an agency.

31a
Appendix C
(5) The term “Inspector General” means an
Inspector General appointed under the Inspector
General Act of 1978 and any Inspector General
that receives funding from, or has oversight over
contracts awarded for or on behalf of, the Secretary
of Defense.
(6) The term “abuse of authority” means the
following:
(A) An arbitrary and capricious exercise of
authority that is inconsistent with the mission
of the Department of Defense or the successful
performance of a Department contract or grant.
(B) An arbitrary and capricious exercise
of authority that is inconsistent with the
mission of the National Aeronautics and Space
Administration or the successful performance
of an Administration contract or grant.
(7) The term “grantee” means a person awarded a
grant with an agency.

32a
Appendix C
48 CFR 7.503
This document is current through the July 10, 2020
issue of the Federal Register with the exception of the
amendments appearing at 85 FR 41416, 85 FR 41427,
and 85 FR 41780. Title 3 is current through July 2, 2020.
7.503 Policy.
(a) Contracts shall not be used for the performance of
inherently governmental functions.
(b) Agency decisions which determine whether a function
is or is not an inherently governmental function may
be reviewed and modified by appropriate Office of
Management and Budget officials.
(c) The following is a list of examples of functions
considered to be inherently governmental functions or
which shall be treated as such. This list is not all inclusive:
(1) The direct conduct of criminal investigations.
(2) The control of prosecutions and performance of
adjudicatory functions other than those relating to
arbitration or other methods of alternative dispute
resolution.
(3) The command of military forces, especially the
leadership of military personnel who are members
of the combat, combat support, or combat service
support role.

33a
Appendix C
(4) The conduct of foreign relations and the
determination of foreign policy.
(5) The determination of agency policy, such
as determining the content and application of
regulations, among other things.
(6) The determination of Federal program priorities
for budget requests.
(7) The direction and control of Federal employees.
(8) The direction and control of intelligence and
counter-intelligence operations.
(9) The selection or non-selection of individuals for
Federal Government employment, including the
interviewing of individuals for employment.
(10) The approval of position descriptions and
performance standards for Federal employees.
(11) The determination of what Government
property is to be disposed of and on what terms
(although an agency may give contractors authority
to dispose of property at prices within specified
ranges and subject to other reasonable conditions
deemed appropriate by the agency).
(12) In Federal procurement activities with respect
to prime contracts --

34a
Appendix C
(i) Determining what supplies or services are
to be acquired by the Government (although an
agency may give contractors authority to acquire
supplies at prices within specified ranges and
subject to other reasonable conditions deemed
appropriate by the agency);
(ii) Participating as a voting member on any
source selection boards;
(iii) Approving any contractual documents,
to include documents defining requirements,
incentive plans, and evaluation criteria;
(iv) Awarding contracts;
(v) Administering contracts (including ordering
changes in contract performance or contract
quantities, taking action based on evaluations
of contractor performance, and accepting or
rejecting contractor products or services);
(vi) Terminating contracts;
(vii) Determining whether contract costs are
reasonable, allocable, and allowable; and
(viii) Participating as a voting member on
performance evaluation boards.
(13) The approval of agency responses to Freedom
of Information Act requests (other than routine

35a
Appendix C
responses that, because of statute, regulation,
or agency policy, do not require the exercise of
judgment in determining whether documents are to
be released or withheld), and the approval of agency
responses to the administrative appeals of denials
of Freedom of Information Act requests.
(14) The conduct of administrative hearings to
determine the eligibility of any person for a security
clearance, or involving actions that affect matters of
personal reputation or eligibility to participate in
Government programs.
(15) The approval of Federal licensing actions and
inspections.
(16) The determination of budget policy, guidance,
and strategy.
(17) The collection, control, and disbursement of fees,
royalties, duties, fines, taxes, and other public funds,
unless authorized by statute, such as 31 U.S.C. 3718
(relating to private collection contractors and private
attorney collection services), but not including-(i) Collection of fees, fines, penalties, costs, or
other charges from visitors to or patrons of
mess halls, post or base exchange concessions,
national parks, and similar entities or activities,
or from other persons, where the amount to be
collected is easily calculated or predetermined
and the funds collected can be easily controlled

36a
Appendix C
using standard case management techniques;
and
(ii) Routine voucher and invoice examination.
(18) The control of the treasury accounts.
(19) The administration of public trusts.
(20) The drafting of Congressional testimony,
responses to Congressional correspondence, or
agency responses to audit reports from the Inspector
General, the Government Accountability Office, or
other Federal audit entity.
(d) The following is a list of examples of functions generally
not considered to be inherently governmental functions.
However, certain services and actions that are not
considered to be inherently governmental functions may
approach being in that category because of the nature of
the function, the manner in which the contractor performs
the contract, or the manner in which the Government
administers contractor performance. This list is not all
inclusive:
(1) Ser vices that involve or relate to budget
preparation, including workload modeling, fact
finding, efficiency studies, and should-cost analyses,
etc.
(2) Services that involve or relate to reorganization
and planning activities.

37a
Appendix C
(3) Services that involve or relate to analyses,
feasibility studies, and strategy options to be used
by agency personnel in developing policy.
(4) Services that involve or relate to the development
of regulations.
(5) Services that involve or relate to the evaluation
of another contractor’s performance.
(6) Services in support of acquisition planning.
(7) Contractors providing assistance in contract
management (such as where the contractor might
influence official evaluations of other contractors).
(8) Contractors providing technical evaluation of
contract proposals.
(9) Contractors prov iding assistance in the
development of statements of work.
(10) Contractors providing support in preparing
responses to Freedom of Information Act requests.
(11) Contractors working in any situation that
permits or might permit them to gain access to
confidential business information and/or any other
sensitive information (other than situations covered
by the National Industrial Security Program
described in 4.402(b)).

38a
Appendix C
(12) Contractors providing information regarding
agency policies or regulations, such as attending
conferences on behalf of an agency, conducting
community relations campaigns, or conducting
agency training courses.
(13) Contractors participating in any situation where
it might be assumed that they are agency employees
or representatives.
(14) Contractors participating as technical advisors
to a source selection board or participating as voting
or nonvoting members of a source evaluation board.
(15) Contractors serving as arbitrators or providing
alternative methods of dispute resolution.
(16) Contractors constructing buildings or structures
intended to be secure from electronic eavesdropping
or other penetration by foreign governments.
(17) Contractors providing inspection services.
(18) Contractors prov iding legal adv ice and
interpretations of regulations and statutes to
Government officials.
(19) Cont ract ors prov id i ng specia l non-law
enforcement, security activities that do not directly
involve criminal investigations, such as prisoner
detention or transport and non-military national
security details.

39a
Appendix C
(e) Agency implementation shall include procedures
requiring the agency head or designated requirements
official to provide the contracting officer, concurrent
with transmittal of the statement of work (or any
modification thereof), a written determination that
none of the functions to be performed are inherently
governmental. This assessment should place emphasis
on the degree to which conditions and facts restrict the
discretionary authority, decision-making responsibility,
or accountability of Government officials using contractor
services or work products. Disagreements regarding the
determination will be resolved in accordance with agency
procedures before issuance of a solicitation.

40a
Appendix D ORDER 12829,
APPENDIX D — EXECUTIVE
OFFICE OF THE PRESIDENT OF THE
UNITED STATES, JANUARY 6, 1993
58 FR 3479
VOL. 58, No. 05, Part XV, Friday, January 8, 1993
Presidential Documents
Title: Title 3 –
The President
National Industrial Security Program
Agency
PRESIDENT OF THE UNITED STATES
Identifier: Executive Order 12829 of January 6, 1993
Text
This order establishes a National Industrial Security
Program to safeguard Federal Government classified
information that is released to contractors, licensees, and
grantees of the United States Government. To promote
our national interests, the United States Government
issues contracts, licenses, and grants to nongovernment
organizations. When these arrangements require access to
classified information, the national security requires that
this information be safeguarded in a manner equivalent to
its protection within the executive branch of Government.
The national security also requires that our industrial
security program promote the economic and technological
interests of the United States. Redundant, overlapping,

41a
Appendix D
or unnecessary requirements impede those interests.
Therefore, the National Industrial Security Program shall
serve as a single, integrated, cohesive industrial security
program to protect classified information and to preserve
our Nation’s economic and technological interests.
Therefore, by the authority vested in me as President
by the Constitution and the laws of the United States of
America, including the Atomic Energy Act of 1954, as
amended (42 U.S.C. 2011-2286), the National Security
Act of 1947, as amended (codified as amended in scattered
sections of the United States Code), and the Federal
Advisory Committee Act, as amended (5 U.S.C. App. 2),
it is hereby ordered as follows:
PART 1. ESTABLISHMENT AND POLICY
Section 101. Establishment. (a) There is established a
National Industrial Security Program. The purpose of this
program is to safeguard classified information that may
be released or has been released to current, prospective,
or former contractors, licensees, or grantees of United
States agencies. For the purposes of this order, the
terms “contractor, licensee, or grantee” means current,
prospective, or former contractors, licensees, or grantees
of United States agencies. The National Industrial
Security Program shall be applicable to all executive
branch departments and agencies.
(b) The National Industrial Security Program shall provide
for the protection of information classified pursuant to
Executive Order No. 12356 of April 2, 1982, or its successor,
and the Atomic Energy Act of 1954, as amended.

42a
Appendix D
(c) For the purposes of this order, the term “contractor”
does not include individuals engaged under personal
services contracts.
Sec. 102. Policy Direction. (a) The National Security
Council shall provide overall policy direction for the
National Industrial Security Program.
(b) The Director of the Information Security Oversight
Office, established under Executive Order No. 12356 of
April 2, 1982, shall be responsible for implementing and
monitoring the National Industrial Security Program
and shall:
(1) develop, in consultation with the agencies, and
promulgate subject to the approval of the National
Security Council, directives for the implementation of this
order, which shall be binding on the agencies;
(2) oversee agency, contractor, licensee, and grantee
actions to ensure compliance w ith this order and
implementing directives;
(3) review all agency implementing regulations, internal
rules, or guidelines. The Director shall require any
regulation, rule, or guideline to be changed if it is not
consistent with this order or implementing directives.
Any such decision by the Director may be appealed to
the National Security Council. The agency regulation,
rule, or guideline shall remain in effect pending a prompt
decision on the appeal;

43a
Appendix D
(4) have the authority, pursuant to terms of applicable
contracts, licenses, grants, or regulations, to conduct
on-site reviews of the implementation of the National
Industrial Security Program by each agency, contractor,
licensee, and grantee that has access to or stores classified
information and to require of each agency, contractor,
licensee, and grantee those reports, information, and
other cooperation that may be necessary to fulfill the
Director’s responsibilities. If these reports, inspections,
or access to specific classified information, or other
forms of cooperation, would pose an exceptional national
security risk, the affected agency head or the senior
official designated under section 203(a) of this order may
request the National Security Council to deny access to
the Director. The Director shall not have access pending
a prompt decision by the National Security Council;
(5) report any violations of this order or its implementing
directives to the head of the agency or to the senior official
designated under section 203(a) of this order so that
corrective action, if appropriate, may be taken. Any such
report pertaining to the implementation of the National
Industrial Security Program by a contractor, licensee, or
grantee shall be directed to the agency that is exercising
operational oversight over the contractor, licensee, or
grantee under section 202 of this order;
(6) consider and take action on complaints and suggestions
from persons within or outside the Government with
respect to the administration of the National Industrial
Security Program;

44a
Appendix D
(7) consider, in consultation with the advisory committee
established by this order, affected agencies, contractors,
licensees, and grantees, and recommend to the President
through the National Security Council changes to this
order; and
(8) report at least annually to the President through the
National Security Council on the implementation of the
National Industrial Security Program.
(c) Nothing in this order shall be construed to supersede
the authority of the Secretary of Energy or the Nuclear
Regulatory Commission under the Atomic Energy Act
of 1954, as amended, or the authority of the Director of
Central Intelligence under the National Security Act
of 1947, as amended, or Executive Order No. 12333 of
December 8, 1981.
Sec. 103. National Industrial Security Program Policy
Advisory Committee. (a) Establishment. There is
established the National Industrial Security Program
Policy Advisory Committee (“Committee”). The Director
of the Information Security Oversight Office shall serve as
Chairman of the Committee and appoint the members of
the Committee. The members of the Committee shall be the
representatives of those departments and agencies most
affected by the National Industrial Security Program and
nongovernment representatives of contractors, licensees,
or grantees involved with classified contracts, licenses, or
grants, as determined by the Chairman.
(b) Functions. (1) The Committee members shall advise
the Chairman of the Committee on all matters concerning

45a
Appendix D
the policies of the National Industrial Security Program,
including recommended changes to those policies as
reflected in this order, its implementing directives, or the
operating manual established under this order, and serve
as a forum to discuss policy issues in dispute.
(2) The Committee shall meet at the request of the
Chairman, but at least twice during the calendar year.
(c) Administration. (1) Members of the Committee
shall serve without compensation for their work on the
Committee. However, nongovernment members may be
allowed travel expenses, including per diem in lieu of
subsistence, as authorized by law for persons serving
intermittently in the Government service (5 U.S.C. 57015707).
(2) To the extent permitted by law and subject to the
availability of funds, the Administrator of General
Services shall provide the Committee with administrative
services, facilities, staff, and other support services
necessary for the performance of its functions.
(d) General. Notwithstanding any other Executive order,
the functions of the President under the Federal Advisory
Committee Act, as amended, except that of reporting to
the Congress, which are applicable to the Committee,
shall be performed by the Administrator of General
Services in accordance with the guidelines and procedures
established by the General Services Administration.

46a
Appendix D
PART 2. OPERATIONS
Sec. 201. National Industrial Security Program Operating
Manual. (a) The Secretary of Defense, in consultation
with all affected agencies and with the concurrence
of the Secretary of Energy, the Nuclear Regulatory
Commission, and the Director of Central Intelligence,
shall issue and maintain a National Industrial Security
Program Operating Manual (“Manual”). The Secretary
of Energy and the Nuclear Regulatory Commission
shall prescribe and issue that portion of the Manual
that pertains to information classified under the Atomic
Energy Act of 1954, as amended. The Director of Central
Intelligence shall prescribe and issue that portion of the
Manual that pertains to intelligence sources and methods,
including Sensitive Compartmented Information.
(b) The Manual shall prescribe specific requirements,
restrictions, and other safeguards that are necessary to
preclude unauthorized disclosure and control authorized
disclosure of classified information to contractors,
licensees, or grantees. The Manual shall apply to the
release of classified information during all phases of the
contracting process including bidding, negotiation, award,
performance, and termination of contracts, the licensing
process, or the grant process, with or under the control
of departments or agencies.
(c) The Manual shall also prescribe requirements,
restrictions, and other safeguards that are necessary
to protect special classes of classified information,
including Restricted Data, Formerly Restricted Data,
intelligence sources and methods information, Sensitive

47a
Appendix D
Compartmented Information, and Special Access
Program information.
(d) In establishing particular requirements, restrictions,
and other safeguards within the Manual, the Secretary of
Defense, the Secretary of Energy, the Nuclear Regulatory
Commission, and the Director of Central Intelligence
shall take into account these factors: (i) the damage to
the national security that reasonably could be expected
to result from an unauthorized disclosure; (ii) the existing
or anticipated threat to the disclosure of information; and
(iii) the short- and long-term costs of the requirements,
restrictions, and other safeguards.
(e) To the extent that is practicable and reasonable,
the requirements, restrictions, and safeguards that
the Manual establishes for the protection of classified
information by contractors, licensees, and grantees shall
be consistent with the requirements, restrictions, and
safeguards that directives implementing Executive Order
No. 12356 of April 2, 1982, or the Atomic Energy Act of
1954, as amended, establish for the protection of classified
information by agencies. Upon request by the Chairman
of the Committee, the Secretary of Defense shall provide
an explanation and justification for any requirement,
restriction, or safeguard that results in a standard for
the protection of classified information by contractors,
licensees, and grantees that differs from the standard
that applies to agencies.
(f) The Manual shall be issued no later than 1 year from
the issuance of this order.

48a
Appendix D
Sec. 202. Operational Oversight. (a) The Secretary of
Defense shall serve as Executive Agent for inspecting and
monitoring the contractors, licensees, and grantees who
require or will require access to, or who store or will store
classified information; and for determining the eligibility
for access to classified information of contractors,
licensees, and grantees and their respective employees.
The heads of agencies shall enter into agreements with
the Secretary of Defense that establish the terms of the
Secretary’s responsibilities on behalf of these agency
heads.
(b) The Director of Central Intelligence retains authority
over access to intelligence sources and methods, including
Sensitive Compartmented Information. The Director of
Central Intelligence may inspect and monitcr contractor,
licensee, and grantee programs and facilities that involve
access to such information or may enter into written
agreements with the Secretary of Defense, as Executive
Agent, to inspect and monitor these programs or facilities,
in whole or in part, on the Director’s behalf.
(c) The Secretary of Energy and the Nuclear Regulatory
Commission retain authority over access to information
under their respective programs classified under the
Atomic Energy Act of 1954, as amended. The Secretary
or the Commission may inspect and monitor contractor,
licensee, and grantee programs and facilities that involve
access to such information or may enter into written
agreements with the Secretary of Defense, as Executive
Agent, to inspect and monitor these programs or facilities,
in whole or in part, on behalf of the Secretary or the
Commission, respectively.

49a
Appendix D
(d) The Executive Agent shall have the authority to
issue, after consultation with affected agencies, standard
forms or other standardization that will promote the
implementation of the National Industrial Security
Program.
Sec. 203. Implementation. (a) The head of each agency
that enters into classified contracts, licenses, or grants
shall designate a senior agency official to direct and
administer the agency’s implementation and compliance
with the National Industrial Security Program.
(b) Agency implementing regulations, internal rules,
or guidelines shall be consistent with this order, its
implementing directives, and the Manual. Agencies shall
issue these regulations, rules, or guidelines no later than
180 days from the issuance of the Manual. They may
incorporate all or portions of the Manual by reference.
(c) Each agency head or the senior official designated
under paragraph (a) above shall take appropriate and
prompt corrective action whenever a violation of this order,
its implementing directives, or the Manual occurs.
(d) The senior agency official designated under paragraph
(a) above shall account each year for the costs within
the agency associated with the implementation of the
National Industrial Security Program. These costs shall
be reported to the Director of the Information Security
Oversight Office, who shall include them in the reports to
the President prescribed by this order.

50a
Appendix D
(e) The Secretary of Defense, with the concurrence of the
Administrator of General Services, the Administrator
of the National Aeronautics and Space Administration,
and such other agency heads or officials who may
be responsible, shall amend the Federal Acquisition
Regulation to be consistent with the implementation of
the National Industrial Security Program.
(f) All contracts, licenses, or grants that involve access to
classified information and that are advertised or proposed
following the issuance of agency regulations, rules, or
guidelines described in paragraph (b) above shall comply
with the National Industrial Security Program. To the
extent that is feasible, economical, and permitted by law,
agencies shall amend, modify, or convert preexisting
contracts, licenses, or grants, or previously advertised or
proposed contracts, licenses, or grants, that involve access
to classified information for operation under the National
Industrial Security Program. Any direct inspection or
monitoring of contractors, licensees, or grantees specified
by this order shall be carried out pursuant to the terms
of a contract, license, grant, or regulation.
(g) Executive Order No. 10865 of February 20, 1960, as
amended by Executive Order No. 10909 of January 17,
1961, and Executive Order No. 11382 of November 27,
1967, is hereby amended as follows:
(1) Section 1(a) and (b) are revoked as of the effective date
of this order.
(2) Section 1(c) is renumbered as Section 1 and is amended
to read as follows:

51a
Appendix D
“Section 1. When used in this order, the term
‘head of a department’ means the Secretary of
State, the Secretary of Defense, the Secretary
of Transportation, the Secretary of Energy,
the Nuclear Regulatory Commission, the
Administrator of the National Aeronautics
and Space Administration, and, in section
4, the Attorney General. The term ‘head of
a department’ also means the head of any
department or agency, including but not limited
to those referenced above with whom the
Department of Defense makes an agreement to
extend regulations prescribed by the Secretary
of Defense concerning authorizations for access
to classified information pursuant to Executive
Order No. 12829.”
(3) Section 2 is amended by inserting the words
“pursuant to Executive Order No. 12829” after the word
“information.”
(4) Section 3 is amended by inserting the words “pursuant
to Executive Order No. 12829” between the words
“revoked” and “by” in the second clause of that section.
(5) Section 6 is amended by striking out the words
“The Secretary of State, the Secretary of Defense, the
Administrator of the National Aeronautics and Space
Administration, the Secretary of Transportation, or his
representative, or the head of any other department or
agency of the United States with which the Department
of Defense makes an agreement under section (1)(b),” at

52a
Appendix D
the beginning of the first sentence, and inserting in their
place “The head of a department of the United States . . . .”
(6) Section 8 is amended by striking out paragraphs (1)
through (7) and inserting in their place “. . . the deputy
of that department, or the principal assistant to the head
of that department, as the case may be.”
(h) All delegations, rules, regulations, orders, directives,
agreements, contracts, licenses, and grants issued under
preexisting authorities, including section 1(a) and (b)
of Executive Order No. 10865 of February 20, 1960, as
amended, by Executive Order No. 10909 of January 17,
1961, and Executive Order No. 11382 of November 27,
1967, shall remain in full force and effect until amended,
modified, or terminated pursuant to authority of this
order.
(i) This order shall be effective immediately.
/s/ George Bush
THE WHITE HOUSE,
January 6, 1993.
[FR Doc. 93-609 Filed 1-7-93; 10:52 am]
Billing code 3195-01-M
FEDERAL REGISTER

